Audit
Report
        MULTIPLE AWARD CONTRACTS FOR SERVICES



Report No. D-2001-189                 September 30, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
AFB                   Air Force Base
ATSP2                 Advanced Technology Support Program II
CECOM                 U.S. Army Communications and Electronics Command
DMEA                  Defense Microelectronics Activity
DSSW                  Defense Supply Service Washington
FAR                   Federal Acquisition Regulation
FASA                  Federal Acquisition Streamlining Act
FORSCOM               United States Army Forces Command
SPAWAR                United States Navy Space and Warfare Systems Command
                        Office of the Inspector General, DoD
Report No. D-2001-189                                             September 30, 2001
 (Project No. D2001CF-0057




                     Multiple Award Contracts for Services

                                Executive Summary

Introduction. The audit was initiated to follow up on actions taken by the Under
Secretary of Defense for Acquisition, Technology, and Logistics in response to Audit
Report No. 99-116, "DoD Use of Multiple Award Task Order Contracts." During that
audit, we identified 66 of 124 task orders that were issued on a sole-source basis without
providing contractors a fair opportunity to be considered. To determine the extent of the
problem and the progress being made, the Under Secretary of Defense for Acquisition,
Technology, and Logistics requested that each Military Department identify 10 multiple
award task order situations and provide specific information on each multiple award
situation on a semiannual basis for 1 year ending June 30, 2000. Multiple award
contracting allows the Government to procure goods and services quickly, using
streamlined acquisition procedures while obtaining the advantage of competition. The
intent of multiple award contracts is to award contracts to technically well-qualified
contractors in order to sustain competition and obtain the best value on task orders
throughout the contract period.

We reviewed 423 multiple award task orders awarded in FYs 2000 and 2001, valued at
$451.4 million, at 15 contracting organizations. Our review covered 22 multiple award
situations consisting of 84 contracts, with a ceiling amount of $9.8 billion. These
multiple award situations were selected from the ones included in the Under Secretary's
analysis as well as multiple award contracts awarded by two other Defense organizations.

Objectives. The specific objective was to review the multiple award contract data
collected by the Under Secretary of Defense for Acquisition, Technology, and Logistics
from the Military Departments and assess the progress being made in providing
contractors a fair opportunity to be considered.

Results. Contracting organizations continued to direct awards to selected sources
without providing all multiple award contractors a fair opportunity to be considered. We
found that 304 of 423 task orders (72 percent) were awarded on a sole-source or directed-
source basis of which 264 were improperly supported. As a result, DoD was not
obtaining the benefits of sustained competition and the reduced costs envisioned
when Congress provided the authority for multiple award contracts. Only 119 of 423 task
orders were competed and only 82 (69 percent) of these orders received multiple bids.
For details of the audit results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics change the Defense Federal Acquisition
Regulation to direct contracting officials to allow all contractors to submit proposals on
all task orders unless a valid exception is justified and signed. We also recommend that
the Under Secretary instruct program and contracting office personnel to discontinue the
practice of designating sources, establish a goal to obtain multiple proposals on at least 75
percent of task orders, and develop a system to measure progress in competition statistics.

We recommend that the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology; Assistant Secretary of the Navy for Research, Development, and
Acquisition; Assistant Secretary of the Air Force (Acquisition), Director, Defense
Finance and Accounting Service, and Director, Defense MicroElectronics Activity:

       •   instruct contracting officials that adequate planning requires an assessment of
           the suitability of the work under consideration, for a multiple award situation,

       •   require the senior contracting officials or ombudsman to sign each justification
           for exception when the contracting organization is below the DoD goal, and

       •   remind contracting officials that the use of logical follow-on only applies to
           the current multiple award contract and does not apply to prior contracts or
           subcontracts awarded outside the multiple award contract.

Management Comments. The Under Secretary of Defense for Acquisition, Technology,
and Logistics; Army; and the Navy did not provide comments to the draft report. The Air
Force and Defense Finance and Accounting Service concurred with two of the three
recommendations, but did not agree with having a DoD goal for multiple proposal
competition on task orders and having a senior contracting official or ombudsman attest
to the validity of an exception for an award decision. They believed that the
recommendation infringed on the contracting officers authority. The Director, Defense
Microelectronics Activity stated that his process for determining whether an exception to
fair opportunity exists is in accordance with FAR 16.505(b), and if a requirement meets
the exception criteria, the benefits of using the multiple contract mechanism far outweigh
the time and cost of a sole source award. The Director also disagreed with establishing
goals for competition of task orders and review by the ombudsman if such goals are not
being met. The Director agreed with providing additional training on proper use of
exceptions for multiple award contracts. A discussion of management comments is in the
Findings section of the report and the complete text is in the Management Comments
section.

Audit Response. It has been over 2 years since our last report recommended additional
training and oversight, and the amount of competition with multiple bids has apparently
decreased for multiple award contracts. If contracting activities were achieving a
prescribed level of competition, there is no reason to require an ombudsman to review


                                             ii
sole-source task orders. However, for the task orders in our review the amount of
competition where multiple bids were received follows:

       •   Army 35 of 136 task orders or 26 percent,

       •   Navy 19 of 104 task orders or 18 percent,

       •   Air Force 25 of 121 task orders or 21 percent,

       •   Defense Finance and Accounting Service 3 of 13 task orders or 23 percent,

       •   DMEA 0 of 49 task orders or 0 percent.

The goal of multiple award contracts was obtaining the best value while sustaining
competition throughout the contracts periods. Clearly, strong action is needed to improve
on the anemic level of competition with multiple bids for task orders. The concern about
limiting the contracting officers’ discretion notwithstanding, an ombudsman is
independent of the influence of the program offices and therefore provides additional
controls over abuse of the multiple award contract. The Director for Acquisition
Services, Defense Finance and Accounting Service concurred with two of the
recommendations, however, his comments did not provide any plan of action for
complying with the recommendations. The Director, Defense Microelectronics Activity
comments for two of the recommendations were not fully responsive.

We request the Under Secretary of Defense for Acquisition, Technology, and Logistics;
Army; and the Navy provide comments in response to the final report. We also request
the Air Force; Director, Defense Finance and Accounting Service; and the Director,
Defense Microelectronics Activity provide additional comments to each applicable
recommendation. All comments should be provided by October 30, 2001.




                                           iii
Table of Contents

Executive Summary                              i


Introduction
     Background                               1
     Objectives                               3

Finding
     Use of Multiple Awards                   4


Appendixes
     A. Audit Process
          Scope and Methodology               21
          Prior Coverage                      21
     B. Summary of Task Order Actions         23
     C. Report Distribution                   25


Management Comments
     Department of the Air Force              27
     Defense Finance and Accounting Service   29
     Defense Microelectronics Activity        30
Background
    The audit was initiated as a followup to actions taken by the Under Secretary of
    Defense for Acquisition, Technology, and Logistics (AT&L) in response to the
    Inspector General, DoD, Audit Report No. 99-116, "DoD Use of Multiple Award
    Task Order Contracts.” Specifically, we were concerned that management’s
    reluctance to establish performance measurements relating to multiple award
    contracts would result in little or no improvement in contract management.

    In our previous report, we found that contracting officers directed work to
    preferred contractors without allowing multiple award contractors a fair
    opportunity to be considered on 66 of 124 task orders (53 percent). We
    recommended that the Under Secretary (AT&L) establish a 90 percent
    competition goal for task orders on multiple award contracts. The Under
    Secretary disagreed, and as a compromise, agreed to conduct a 1-year test.

    The Under Secretary (AT&L) requested that each Military Department identify 10
    multiple award task order situations and provide information on a semiannual
    basis for 1 year to assess competitive progress. For each multiple award situation,
    the Under Secretary (AT&L) requested:

           •   the number of contracts awarded,

           •   the general nature of services procured,

           •   the number of task orders awarded during the period,

           •   the number of competitive solicitations for task orders issued in the
               period,

           •   the number of offers submitted for each competitive solicitation,

           •   the number of task orders awarded during the period on the basis of
               "fair opportunity to be considered" without the issuance of a
               competitive solicitation, and

           •   the number of uses of exceptions cited in FAR 16.505(b) (2), and the
               number of times each exception was used.

    The first reports were provided on March 7, 2000, and the latest on October 20,
    2000. The study consisted of 25 sites, 53 multiple award situations, and 5,546
    task orders. The Under Secretary (AT&L) was to analyze the data to evaluate the
    extent of the problem and take appropriate action.

    Multiple Award Task Order Contracts. The Federal Acquisition Streamlining
    Act (FASA) of 1994 authorizes agency heads to enter into multiple award delivery
    and task order contracts for the procurement of goods and services. Multiple
    award contracts occur when two or more contracts are awarded from one
    solicitation. This allowed the Government to procure goods and services quickly,
    using streamlined acquisition procedures while obtaining the advantage of
    competition. The intent of multiple award contracts is to establish a group of


                                         1
    prequalified contractors that are technically capable of performing the work, to
    sustain competition among the contractors, and obtain the best value on task
    orders throughout the contract period. Because multiple award contracts contain
    broad statements of work and provide the contractor’s little assurance on actual
    amounts of orders that will be received, it is crucial that the initial selection
    process focus on technical issues. This process allows contractors to compete on
    relatively equal footing. When specific task orders are developed with defined
    requirements, cost should be a substantial factor in the selection process. Using
    the initial selection process as justification that adequate competition has occurred
    serves little purpose when so many uncertainties exist in the initial process.
    FASA establishes a general preference for using multiple awards and requires that
    the implementing Federal Acquisition Regulation (FAR) ". . . establish a
    preference for awarding, to maximum extent practicable, multiple task or delivery
    order contracts for the same or similar services or property." The FASA mandates
    the use of multiple award contracts for advisory and assistance service contracts
    exceeding $10 million and 3 years duration.

    Changes to Contracting Process. FASA authorizes the use of broad statements
    of work, limits contractor protests, and mandates that multiple awardees have a
    fair opportunity to be considered for orders in excess of $2,500.

            Statements of Work. Statements of work for multiple award contracts
    can be general in describing the scope, nature, complexity, and purpose of the
    services or supplies. However, statements of work for individual task or delivery
    orders must specifically describe the work to be performed, and the work
    specified on task or delivery orders must be within the scope of the general
    contract statement of work.

           Contractor Protests. Multiple awardees cannot protest awards of task or
    delivery orders except on the grounds that the order increases the scope, period, or
    maximum value of the contract. As a result, contractors cannot protest the award
    of orders based on unfairness or lack of competition.

             Fair Opportunity to be Considered. Multiple awardees must have a fair
    opportunity to be considered for awards of orders in excess of $2,500 unless a
    valid exception exists. However, FASA allows agencies considerable latitude to
    define what constitutes a fair opportunity. Contracting officers have broad
    discretion to determine how orders are awarded, provided that selection criteria
    are set forth in the solicitation and contract. As a result, contracting officers must
    use prudent business judgment to consider past performance, quality of
    deliverables, cost control, price or cost, and other relevant factors. The FASA and
    FAR prohibit allocation of orders among the multiple awardees.

FY 2002 National Defense Authorization Act
    On September 12, 2001, the Senate Armed Services Committee released S.1416
    as its version of the FY 2002 National Defense Authorization Act. The bill
    includes requirements for establishing a management structure for procurements
    of services and data analysis. The bill requires establishment of threshold
    approval levels for any service contract or task order placed with DoD or



                                          2
     non-DoD activities that is not performance based. The bill also requires tracking
     competition and small business awards for all service contracts and task orders.
     Further, it requires establishing a program review structure with dollar thresholds
     for when senior procurement executives should review a procurement for services.
     The changes in statute were directed because of multiple audit reports from the
     General Accounting Office and Inspector General, DoD, about the contracting
     problems for the $52 billion of annual service contracts. The bill established
     savings goals of 3 percent by 2002, increasing to 10 percent by 2011, that the
     Department must achieve for service contracts.

     For multiple award contracts the bill establishes a requirement that task and
     delivery orders in excess of $50,000 must be competed unless a determination in
     writing is made that competition cannot be achieved because of a valid exception.
     In addition, each military department and defense agency is required to report how
     often waivers are granted to the requirement for competition.

Objectives
     The overall objective was to follow up on actions taken by the Under Secretary of
     Defense (AT&L) in response to Report No. 99-116, "DoD Use of Multiple Award
     Task Order Contracts." Specifically, we reviewed the accuracy of multiple award
     contract data collected by the Under Secretary of Defense (AT&L) from the
     Military Departments to assess progress in using these types of contracts. See
     Appendix A for discussion of audit scope and methodology, and prior coverage
     related to audit objectives.




                                          3
            Use of Multiple Awards
            Contracting organizations continued to direct task order awards to selected
            sources without providing all multiple award contractors a fair opportunity
            to be considered. Of the 423 task orders that we reviewed, 304 (72
            percent) were awarded on a sole-source or directed-source basis, of which
            264 were awarded improperly. These awards were improper because:

                   •   contracting officials abused the “broad discretion” portion of
                       the FAR for task order awards under multiple award contracts,

                   •   contracting officials allowed “exception” claims without
                       adequate supporting documentation and succumbed to program
                       office and internal pressures to generate business for their
                       multiple award contracts,

                   •   contracting officials did not adequately plan work to ensure that
                       it was suitable for multiple awards, and

                   •   OSD management did not properly monitor, evaluate, and
                       analyze data collected from Military Departments for multiple
                       award contracts.

            The other 119 orders were competed with only 82 (69 percent) receiving
            multiple bids. As a result, contracting organizations were not achieving
            the cost saving benefits of multiple award contracts because of the lack of
            sustained competition and the absence of a measurable basis for
            improvement. Only 49 actions were awarded to the low bidder. We
            determined that only 3 of 15 contracting organizations used multiple
            award contracts correctly.

Criteria
     Federal Acquisition Regulation. The FAR, part 16.5 implements the portion of
     FASA regarding multiple award contracts. FAR 16.505, “Ordering,” states that
     awardees will have a fair opportunity to be considered for orders worth more than
     $2,500 unless certain exceptions apply. These exceptions are:

            •   the agency need for the supply or service is so urgent that providing a
                fair opportunity would result in unacceptable delays,

            •   only one contractor is capable of providing the supply or service
                because the supply or service is unique or highly specialized,




                                          4
           •   the delivery or task order is a logical follow-on to a previously issued
               order, provided all awardees were provided a fair opportunity to be
               considered for the original order, or

           •   an order is placed with a contractor to satisfy a minimum guarantee.

    The regulation does not define “. . . a fair opportunity to be considered.” Instead,
    individual contracting officers are allowed to use broad discretion when
    determining that a fair opportunity was given. While the regulation states that
    contracting officers may make awards without contacting each contractor, the
    contracting officer must consider factors such as past performance on earlier tasks
    under the multiple award contract, quality of deliverables, price or cost under each
    order, and other factors.

    Order Placement Procedures. In addition to requiring certain considerations
    when awardees are not contacted, the FAR does not allow preferred source
    designations. In August 1999, FAR part 16.505(b) was added and states:
               However, methods, such as allocation or designation in any way of any
               preferred awardee(s), that would result in less than fair consideration
               being given to all awardees prior to placing each order, are prohibited.

    FAR 16.505(b)(5) also requires the head of the agency to designate a task order
    contract ombudsman. The ombudsman must ensure that each contractor is
    afforded a fair opportunity to be considered. The ombudsman must be a senior
    agency official who is independent of the contracting officer.

    The Deputy Director, Office of Management and Budget, issued a memorandum
    for the President’s Management Council on May 21, 1999, concerning multiple
    award contracts. The memorandum was issued after Inspector General, DoD,
    Report No. 99-116 found multiple award situations were not being used
    effectively, and that contracting officials and program offices were designating
    preferred sources without fair considerations for other awardees. To emphasize
    the prohibition of designated sources, the memorandum states:
               …we moved to strengthen the use of MACs and the fair opportunity
               process by discontinuing the practice of designating contract holders as
               a preferred source for specific work.

    This change was created to ensure that multiple awards were being used in the
    most effective and beneficial manner. These awards would occur only when all
    awardees were given fair consideration prior to the issuance of each task order.

Directed Awards
    Of the 423 task orders that we reviewed, 304 (72 percent) were awarded on a sole-
    source or directed-source basis. The 304 task orders, valued at $312.2 million,
    were awarded as sole-source or directed–source orders based on the contracting
    officers’ broad discretion in applying fair opportunity procedures or as exceptions
    to the requirement for all contractors to be offered a fair opportunity on each
    order. Broad discretion awards consisted of documented and undocumented


                                             5
    decisions to award to a contractor without allowing others to offer proposals.
    Orders were only supposed to be awarded as sole source if a FAR 16.505
    exception applied. Since multiple award contracts were designed to allow
    streamlined awards between contractors with strong technical skills, unique and
    urgent exceptions should have been rare. However, we found that unique and
    urgent exceptions were routinely used. See Appendix B for the complete listing
    of the 423 task orders reviewed. The 159 valid actions were either competed task
    orders or cited exceptions that were properly supported. The following is a break
    down of the 159 task orders, valued at $264.1 million:

           •   37 competitive one-bid,

           •   33 competitive multiple bids with awards to other than the low bidder,

           •   49 competitive multiple bids with awards to the low bidder, and
           •   40 exceptions.

    The following figure depicts the 264 improperly directed task orders, valued at
    $187.3 million, deemed invalid. We determined that invalid task orders included
    those that should not have been awarded as sole-source or directed-source actions
    either because they violated the FAR requirements or were questionable because
    they were not properly supported.


                7
                     32            Improperly Directed Task Order Actions
                                      Directed broad discretion 148 - $113.8 million
                           32         Urgency 7 - $5.8 million
    148                               Uniqueness 32 - $5.8 million
                                      Minimum guarantee 32 - $28 million
                          45          Logical follow-on 45 - $33.9 million




Broad Discretion Authorized
    FAR 16.505 authorizes contracting officers to exercise broad discretion when
    awarding task orders under multiple award contracts provided that a fair
    opportunity to be considered is provided to all interested parties. However,
    despite the vagueness of the criteria, the FAR requires that contracting officers
    consider the cost of the task order as one of the factors in providing a fair
    opportunity to be considered. Contracting officers abused this broad discretion by
    awarding task orders even though they failed to support their awareness of pricing


                                         6
for all contractors not contacted before the order was awarded. When we
reviewed task orders where contractors were not contacted to submit proposals,
we found no task orders that showed that the contracting officer knew the labor
mix or labor hours that contractors may have proposed. Often, these selections
were requested by program office personnel or because the contractor had been an
incumbent from a prior contract.

Directed with Documentation. Seventy-six task orders, valued at $72 million,
were directed to specific contractors using various forms that provided limited
information and provided no justification to support a sole-source award. The
source selection forms used terms such as integrated assessment, source selection
memorandum, or in-house consideration. The forms also cited fair opportunity,
but did not address cost consideration and provided unconvincing rationale for the
selection. Contracting officials at Brooks Air Force Base (AFB), Texas, used
contractor source selection memorandums instead of issuing competitive
solicitations to award 42 task orders. Essentially, the contracting officer issued a
sole-source award to a contractor he deemed most suitable. The award was based
on his subjective interpretations on prior history, quality, expertise, or other
factors. The documentation did not support a sole-source award and cost was not
included as an evaluation factor for contractor selection. For example, 13 sole-
source task orders were awarded at Brooks AFB to provide environmental
remediation at various worldwide locations. The contracting officer selected a
contractor using contractor proximity to the worksite and technical ability as
evaluation factors instead of seeking proposals. Price was not considered in the
selection decision. Contracting officials at the United States Army Forces
Command (FORSCOM) used in-house consideration forms to direct orders under
$3 million, an arbitrary amount decided upon and agreed to by the contractors.
The $3 million amount was stated on the in-house consideration form. Section
2304c, title 10, United States Code, establishes the requirement to give all
contractors fair opportunity to be awarded task orders in excess of $2,500 on
multiple award contracts. This requirement was incorporated into FAR part
16.505. The validity of any order issued under this multiple award should be
questioned because it violated the law. The organization ignored the law and
established a higher arbitrary amount in order to select a contractor without
allowing other contractors to submit proposals. In addition to this violation,
contracting officials did not address cost as a factor for contractor selection.

Directed without Documentation. Seventy-two orders were directed to a
specific contractor without claiming any of the four exceptions or providing any
documentation to support a sole-source award. In fact, procurement officials at
the Defense Supply Service Washington (DSSW) stated that 50 task orders were
not competed among the awardees and were instead directed to the contractor of
choice. DSSW should have allowed contractors to submit proposals to permit
valid best value analyses on all these orders. It appears that because the time to
process awards of task orders under multiple awards was sufficiently short, all
awardees should have been given an opportunity to submit proposals on new
tasks.




                                     7
Exceptions to Fair Opportunity
     The FAR requires contracting officers to document in the contract file the
     rationale for placement and price of each order issued under multiple award
     contracts. However, contracting officers were citing exceptions to fair
     opportunity without providing adequate supporting documentation. In addition,
     contracting officers allowed program office personnel to establish claim
     exceptions to fair opportunity. The program offices cited exceptions based on
     their experience of working closely with incumbents from prior contracts or other
     preferred sources. Contracting officials allowed exceptions without question and
     succumbed to program office and internal pressures to generate business for these
     multiple award contracts.

     Urgency Exceptions. The FAR authorizes contracting organizations to issue
     sole-source task orders if the need for the services or supplies is so urgent that
     providing a fair opportunity would result in unacceptable delays. Eight orders,
     valued at $5.8 million, were awarded because of urgency. Seven of these orders
     were inappropriately justified. Documentation was inadequate and did not
     support the claim that other contractors could not perform the work within the
     specified time, or that there was even an urgent event. For example, at
     FORSCOM, one task order cited an urgent need for recurring services. The
     contracting officer claimed urgent caretaker services to maintain equipment while
     units were deployed as scheduled. Recurring services should be planned well in
     advance and should not require an urgent justification to issue a task order.
     Contracting officers at the Tank and Armaments Command (TACOM) and the
     Space and Missile Systems Center stated 14 days were required from the receipt
     of a well-written task order to the time of award. This short award time frame
     eliminated almost every urgent justification.

     Unique Exceptions. If only one awardee can provide the unique supplies or
     services, contracting organizations may issue a sole-source task order. Sixty-two
     orders, valued at $126.2 million, were awarded based on the unique exception.
     The justifications were inadequate in 32 cases. Contracting officials had no
     evidence that the other multiple award contractors were not capable of performing
     the tasks. At the Military Sealift Command, the unique exception was cited in
     order to develop a cargo securing manual, based on guidance from the American
     Bureau of Shipping. The other awardee was not considered for this task because
     of the incumbent contractor’s prior experience. Even though prior experience can
     be used as justification, the contracting officer should not accept program office
     justification that an incumbent contractor is the only capable source without
     convincing support.

     In addition to a contractor’s unique capabilities, the contracting officer must
     demonstrate that the work is highly specialized. FORSCOM awarded 11 task
     orders using the unique exception, but no documentation was provided to indicate
     that no other contractor could do the work. One task order used the unique
     exception to direct the order to a preferred subcontractor. Contracting officials
     did not consider other contractor capabilities but selected a contractor because its
     subcontractor was an “. . . incumbent under another agency’s expiring contract on
     their team.” The one-paragraph justifications for the 11 orders had no convincing
     support to justify use of the unique exception. These justifications even contradict


                                          8
earlier statements by contracting officials during the initial contractor evaluation
that indicated all awardees were more than capable of performing the majority of
the work. The Government official stated that “. . . the number and quality of
offers received exceeded its [Government’s] expectations,” therefore the number
of contracts awarded was increased because of the high quality of the offers
submitted. This situation exemplifies a multiple award situation that is ideal for
competitive activity because of the superior technical qualifications of all
awardees. Instead of competing the orders and receiving benefits from reduced
prices and best value, FORSCOM awarded task orders to preferred and incumbent
contractors based on justifications that did not fit the situation.

Logical Follow-On Exceptions. FAR 16.505 authorizes contracting
organizations to issue sole-source task orders if they are logical follow-on task
orders to orders issued previously under the contract, provided all awardees were
given a fair opportunity to be considered for the original order. Forty-five of 53
orders, valued at $33.9 million, were awarded as logical follow-ons, but were not
valid. In each case, contracting organizations continued to erroneously claim that
the task orders were “follow-ons” to prior orders where all contractors were
provided a fair opportunity to be considered. The original orders were all issued
on a sole-source basis, and in some cases were related to contracts that were not
under the current multiple award. For example, the Navy Space and Warfare
Systems Command (SPAWAR), and the Defense Financial Accounting Service
awarded 14 orders as logical follow-on orders to task orders awarded under prior
contracts. These 14 orders did not meet the FAR exception requirement and were
directed to the incumbent contractor. A contracting specialist at SPAWAR
admitted that 13 orders were not “. . . considered follow-on based upon the
Government’s traditional interpretation,” and later stated, “. . . tasking is ongoing
and the potential for costs will rise if service is disrupted by competition.” These
statements exemplified contracting officials’ abuse of the exception criteria to
award task orders to specific contractors. Contracting officials, in some cases,
became aware that the logical follow-on exception did not comply with the FAR
and attempted to reclassify it as a unique source.

Guaranteed Minimum Exceptions. Thirty-three task orders, valued at
$28.4 million, were awarded sole-source to satisfy the minimum guaranteed
contract amount. Twelve of these orders, valued at $19.4 million, were not valid
minimum guaranteed exceptions, but were awarded to satisfy internally
established small business goals. FORSCOM directed these orders to specific
small business contractors by claiming the minimum guarantee exception.
Officials at Tinker AFB awarded one task order, valued at $694,242, as a
minimum guarantee in order to award the order to a preferred source. The
contracting official was aware the minimum guarantee exception was being
abused but submitted to the pressure of the program office and awarded the task
order despite documenting “I don’t think it flies but I’m told this is being rushed .
. . .” The contracting officer initially planned to give all contractors a fair
opportunity for award; however, when the program office made demands to
expedite the award, the contracting officer then decided to use the minimum
guarantee and stated, “We get to take that exception once a year, might as well
make it a good one.”

The other 19 orders deemed inappropriate were awarded as the first task order of
the contract in order to satisfy minimum guarantee requirements. The regulation


                                      9
     authorizes contracting organizations to place an order with a contractor to satisfy a
     minimum guarantee but the regulation does not state when to award a task order
     using the minimum guarantee exception. We maintain that a prudent business
     decision would be to use this exception when the contract period is nearing
     completion and the contractor has not yet been awarded enough task orders to
     meet the minimum requirements. This process would allow contractors to receive
     competitive awards that reach or exceed the minimum guarantee and would also
     allow the Government to receive the benefits of competition. The DSSW policy
     chief stated that there are no restrictions relative to when minimum guarantees can
     be used; however, he agreed that there could be benefits to competing the task
     orders. Nevertheless, contracting organizations cited the FAR and persisted on
     issuing minimum guarantees during the early stages of the contract for dollar
     amounts significantly higher than the minimum guarantee. For example,
     SPAWAR issued a task order for $2.1 million to satisfy the minimum guarantee
     of $807,852. This order was awarded less than 2 months after the contract was
     awarded—for 161 percent higher than the minimum guaranteed amount. If the
     contractors competed for this order, a competitive price could have been obtained,
     and the minimum guaranteed amount for one contractor met. Competition
     benefits were lost when this high-dollar task order was awarded on a sole-source
     basis. We believe that where insufficient competition was occurring, the head of
     the contracting organization or the task order ombudsman should sign each
     justification for an exception from fair opportunity to be considered.

Pressures and Influences
     Contracting Officer Duties. Contracting officers have the contracting authority
     and are ultimately responsible for selecting the best source for award of task
     orders under the multiple award contracts. However, during our review,
     contracting officers at selected offices were not actively and aggressively
     assuming this responsibility. Several contracting officers did not even believe that
     it was their decision to make and routinely accepted the recommended source. At
     Tinker AFB, Oklahoma, the program office had acted as the selection authority
     and cited the exceptions to fair opportunity to award to a specific contractor. The
     contracting officer provided no input into this decision other than to issue the task
     order. When questioned, the contracting officer stated that it was not his place to
     determine which exception should be used. At DSSW, the contracting officer
     stated that the customer had extensive knowledge of the program and therefore
     was qualified to make the selection decision. It is the contracting officer’s
     responsibility to make the final selection decision and document the rationale for
     the placement and price of each order. In this regard, we believe the contracting
     officer needs to have sufficient technical support to make informed independent
     decisions.

     Program Office Influence and Internal Pressure. Program office influence and
     internal pressure to market the contracting organization’s multiple award contracts
     to other organizations also led to misuse of these contract mechanisms. Program
     offices continued to designate preferred sources and used these contracts to
     quickly award orders to contractors under situations that essentially amounted to
     sole-source procurements. Ten of the 15 contracting organizations awarded task
     orders on a directed-source basis because the program offices preferred to work
     with a specific contractor, usually the incumbent from a prior contract or task.


                                          10
Designation of a preferred contractor occurred in spite of the FAR part 16.505
change and the May 1999 Office of Management and Budget memorandum
stating the allocation or designation of any awardee is not an acceptable ordering
method. Contracting officials at the Space and Missile Systems Center agreed
that program offices had too much influence in the final selection decision and
often limited competition in order to work with a specific contractor. One
contracting official stated that if the program office did not officially direct the
contracting officials as to which contractor to select for award, contracting
officials received unofficial direction. Conversely, the contracting officer at the
Communications Electronics Command (CECOM), where the use of multiple
award contracting was more successful, did not allow the program offices to
influence the decision to compete the orders. The contracting officer notified the
customers in advance that all orders would be competed and as a result some
customers decided to obtain the services elsewhere.

The problems of program office source designation were compounded by the fact
that the program office was, in most cases, responsible for technical evaluations
and source selection recommendations. As a result, contracting officers rarely
raised questions and awarded to the preferred source in each case. At least one
Air Force contracting officer indicated that pressure was more explicit and that
several program offices had threatened to take their business elsewhere if they
could not have specific contractors:
           Some of the SPOs [program offices] wanted specific contractors and if
           they didn’t get them they threatened to pull out of TAMS [Technical
           and Acquisition Management Support] and go elsewhere such as GSA.

We noted these same pressures exerted by program offices on contracting
personnel during our previous audit.

Contracting officials also felt internal pressure to generate business for their
multiple award contracts to justify the efforts put into the award process.
Contracting officials at FORSCOM felt a pressure to compete their multiple
award contracts with multiple award contracts at other contracting activities and
stated:
           Supposedly, TACOM is marketing their contract, “Focused
           Sustainment,” at OUR installations…Additionally, they have a second
           log support services draft…and it will provide more “competition” for
           LOGJAMSS. Secondly, rumor also has it that the Tinker AFB
           contracting contingent is coming out here on 8-9 November to talk to
           FMMC – I would guess that they are trying to lobby for our continued
           business – word is that they are very concerned about LOGJAMSS.

           There are substantial marketing efforts ongoing that are directed against
           LOGJAMSS. To ensure the success of our contract, we need to ensure
           that we market it effectively. I understand that the contractors who are
           awarded the 6 contracts will do their share of drum beating, but I
           assume FORSCOM will have to do their share.

There was a strong push to market this multiple award rather than issuing task
orders to meet known requirements. Allowing program offices to designate


                                         11
     sources to gain their business or giving contractors uncompeted work that they
     brought to the multiple award, resulted in a pattern of sole-source actions that
     were contradictory to the purpose of the multiple award mechanism. For
     example, contracting officials at the Naval Supply Systems Command awarded
     task orders, justified as unique exceptions, based upon an agreement made with
     contract awardees. If the contractor believed that work needed to be completed,
     the contractor submitted a requirement for the work, along with a submission of
     cost and labor categories. The contracting officer issued an award to that
     contractor without question. These awards were never competed and when
     questioned about this, the contracting officer stated, “In the past we have agreed to
     give the task to whomever brings the task to us on this contract.”

     In order for the Government to receive the most benefit from multiple award type
     contracts, the program office, contracting officers, and financial and technical
     analysts must work as a team. The program office cannot be the customer,
     selection authority, and technical and cost analyst. At two locations, offices went
     as far as specifying the labor hours and labor categories that contractors should
     propose, which not only inhibited true competition, but stifled creativity and
     innovation by contractors proposing solutions. With a lack of sufficient
     independence, program offices created the opportunity for a biased contractor
     selection decision. Conversely, contracting officers cannot, in many cases, make
     the contractor selection decision without assistance from other analysts and
     program offices because contracting officers often lack the qualifications and time
     to make the most informed decision. We believe that if the program office
     interference continues to inappropriately affect the selection process, independent
     technical assistance, either developed within the contracting office or through an
     unbiased third party, such as the ombudsman at each contracting organization will
     be necessary.

Acquisition Planning
     Initial Multiple Award Planning. Contracting organizations did not adequately
     plan and ensure that work was suitable for multiple award contracts. Even when
     outside pressures did not affect competitive aspects of the multiple awards,
     inadequate planning contributed to a lack of success. FAR 16.504 states:
                The contracting officer must determine whether multiple awards are
                appropriate as part of acquisition planning. The contracting officer
                must avoid situations in which awardees specialize exclusively in one or
                a few areas within the statement of work, thus creating the likelihood
                that orders in those areas will be awarded on a sole-source basis.

     Acquisition planning was not properly performed by seven contracting
     organizations, resulting in task orders being awarded on a sole-source basis.
     When awarding multiple award contracts, the type of work to be completed must
     be a prime factor in deciding whether multiple award type contracts are
     appropriate. Contracting officers should not use the multiple award approach if
     only one contractor is capable of doing the work, or where tasks are so integrally
     related that only one contractor can reasonably perform the work throughout the
     life of the contract. The pattern of one-bid awards, high-bid awards, and unique
     exceptions demonstrated that acquisition planning was hasty and inadequate. At


                                             12
Eglin AFB, Florida, contracting officials gave contractors the opportunity to
compete on 70 orders. However, 66 orders were either competitive one-bids (44
task orders) or competitive multiple bids awarded to a contractor who was not the
low bidder (22 task orders). These practices resulted in a multiple award situation
that lost the advantages of competition. The inability to sustain competition and
obtain the best value on task orders occurred because contracting officials
awarded contracts to contractors that specialized in certain areas in the statement
of work or awarded task orders to the incumbent contractor disregarding price.
These factors limited the potential benefits and savings that can be achieved
through proper use of multiple award contracts. Multiple award contracts should
be offered and awarded to all technically capable contractors who are willing to
bid on the majority of orders.

The Defense Microelectronics Agency (DMEA) awarded 30 task orders on a sole-
source basis either because of the highly specialized nature of the work or due to
contractor’s proprietary data rights. It would not have been advantageous to have
another contractor pay to obtain the data and rights. Therefore, this highly
specialized work was not suitable for multiple award type contracts. In one
instance, a contractor was determined to be the only capable source for the
analysis of superconducting electronics technology because the contractor had
been working with this program for the past 10 years. Acquisition planning
would have revealed that the 10 year history for this unique type of work and the
ownership of proprietary data for other work would not allow for competition
among the awardees for the majority of the task orders. Separate sole-source
contracts should have been awarded instead of multiple award contracts.

Procurement Planning. Contracting officials must determine whether a multiple
award is appropriate and whether awardees are technically capable; however, all
awardees are not required to be capable of performing every requirement as well
as any other awardee. The premise for using a multiple awards contract is that
contractors are technically qualified enough to maintain competition throughout
the contract’s period of performance. For 15 of the 22 multiple award situations,
technical capabilities were the most significant evaluation factor for awardee
selection. In an ideal situation, the contractors technical abilities should be similar
enough to make price a primary factor in awarding task orders. Yet, 63 task
orders were awarded with only one-bid or were awarded to the high bidder.

One success story was the CECOM. The contracting officials made a conscious
decision before issuing the solicitation to award contracts only to those contractors
that were technically capable of performing the work. Therefore, when orders
were solicited, only one sole-source order was awarded because all contractors
had the ability to perform the work and these situations resulted in two or more
contractors competing for each order. Price was a significant factor in task order
selection, and savings were achieved. CECOM avoided costs of $23.6 million on
the award of 12 orders, valued at $55 million, when multiple contractors
competed and orders were awarded to the low bidder.

The situation at the CECOM was different from other contracting organizations in
that the majority of the orders were competed with orders awarded to the low
bidder. For other contracting organizations, 145 orders were awarded to
incumbent contractors or preferred sources either because of unique capabilities,
follow-on work from a prior contractor for specialized services or tasks, or


                                      13
contractor’s technical capabilities. These orders were directed to an incumbent
contractor or preferred source, despite the fact that at least one other awardee was
capable of providing the same services or supplies. However, due to the
customer’s past experience with these contractors, other contractors were not
given a fair opportunity. These known problems inhibited the success of these
multiple award contracts. At the SPAWAR, one contract began as a single award
until the contracting staff became aware that it should be a multiple award. Once
that decision was made, it was decided to add the two unsuccessful contractors
from the initial competition without resoliciting to seek other sources. In this
case, since the contracting officer had already scheduled a single contractor,
Resource Consultants Inc. over the other contractors, the selection process was
flawed and planning was inadequate to ensure sustained competition among the
three contractors. This lack of acquisition planning resulted in 27 of 28 orders
being awarded with invalid justifications and only 4 orders being competitively
awarded. In another case, three contractors were awarded multiple award
contracts as a follow-on to a prior multiple award at the Space and Missile
Systems Center. The two incumbents as well as a small business firm were
awarded contracts. The contracting officer knew early in the process that the two
incumbents did not intend to compete for each others’ recurring requirements
from the prior contract, which they estimated at approximately $200 million. The
small business, while desiring to compete, acknowledged that certain awards
might be directed to the other contractors. Poor planning resulted in competition
less likely to occur. In fact, 54 of 64 orders were awarded without competition to
preferred sources including 52 awards to incumbents.

Task Order Planning. Poor planning was also evident during the task order
competitions. Contractors competed for understated task order amounts that were
based on incomplete requirements. Contract office personnel did not determine a
realistic value of the entire task order requirement before award, which may have
impacted the best value decision. For example, Eglin AFB competed a task order
for an initial value of $134,903. Through modification, this task order was
increased to approximately $1.5 million. A follow-on to this task order was later
awarded which included 10 modifications for a total estimated value of $21.4
million. Warner Robins AFB, Georgia, awarded an initial tasking for $2.3 million
and later issued additional follow-on task orders and modifications totaling $13.6
million. The original competitions for both of these orders did not realistically
address the amounts of the requirements and were examples of poor planning in
addressing the scope of work for the task orders.

As a result of Sections 803 and 804 of the National Defense Authorization Act of
Fiscal Year 2000, FAR changes are currently being proposed to provide broad
guidance on planning for Governmentwide task order and delivery order
contracting. Section 803 also proposes to strengthen use of multiple award
contracts by requiring competition for orders awarded under multiple award
contracts. The recommendations in our report are more detailed, and they address
directing work to preferred sources and the use of exceptions to fair opportunity.
Although the proposed FAR changes are a step in the right direction, these
changes will not correct the problems noted in the report and do not alleviate the
need for our recommendations.




                                     14
OSD Action
    The Office of the Under Secretary of Defense (AT&L) did not concur with our
    recommendation made in the 1999 report to set a goal of competing 90 percent of
    the Department’s task orders. Instead, the office agreed to gather information from
    the Military Departments over a 1-year period and analyze the data to determine if
    competition on the task orders was adequate. However, after collecting this data,
    OSD did not conduct meaningful analysis of the information. In fact, OSD did
    not monitor or address obviously inconsistent and errant data submitted by
    contracting organizations, and did not include any follow up work on the data
    submitted. A modicum of analysis would have shown these errors, and illustrated
    that competitive activity for multiple award task orders had not improved since
    the previous audit. In the absence of any meaningful action, the poor practices
    continued for at least 2 years after the problem was first reported. If DoD does
    not develop a system to monitor multiple award contracts and associated task
    orders, the inappropriate practices will continue. The current DD 350 database
    cannot track these actions effectively and provides inadequate means to identify
    the number of task orders that are being competed under multiple award contracts.

    Contracting officials did not perform a quality assessment of the information
    before submitting it to OSD. Officials at many sites could not state who was
    accountable for reporting this information to OSD. A number of sites reported
    incorrect information. There were several sites in which verification of the
    information reported to OSD was not possible. Of the 13 contracting
    organizations that reported information to OSD, 10 either reported incorrect
    information or information that could not be verified. For example, Naval Supply
    Systems Command/Fleet Technical Support Center Atlantic submitted data on 26
    orders awarded under two contracts using the logical follow-on exception.
    However, there were 73 orders awarded during the period and, without task orders
    identifying the contract number and exception used, it was not possible to verify
    the statistical information. Officials at the Fleet Technical Support Center
    Atlantic were asked to reconcile the information submitted but could not identify
    the task orders for which the statistical data was related.

Successful Models
    Two contracting organizations made efforts to improve the use of multiple awards
    since the prior audit and one contracting organization continues to use multiple
    awards effectively because of proper planning to establish the multiple award
    contracts and effectively use competition throughout the contract period. Naval
    Facilities Engineering Command, CECOM, and TACOM used multiple award
    contracts for the appropriate types of services and supplies to ensure competition
    throughout the contract period and avoid situations in which only one contractor
    was capable of performing the majority of work. In addition to proper initial
    acquisition planning, these organizations made conscious decisions to only award
    contracts to the most technically qualified contractors. This resulted in a group of
    highly qualified contractors willing to compete on the majority of orders. In those
    instances, since contractors were considered similar in abilities, price took on
    more importance and technical reviews were not used as often to justify higher



                                         15
    priced contractor awards. As a result, 25 orders worth $66.3 million, were
    awarded to the lowest bidders and $24.8 million in savings were achieved.

Conclusion
    The underlying goal of multiple award contracting was to obtain the best value
    while sustaining competition throughout the contract period. Price competition
    was one of the best tools to ensure that the Government receives a fair and
    reasonable price. The intent of multiple award contracting was not to have a
    majority of orders awarded on a sole-source basis, but instead to use a streamlined
    acquisition process to achieve competition without increasing the Government’s
    risk. However, the large percentage of sole-source orders demonstrates that most
    DoD contracting organizations continued to be increasing the risk to the
    Government and losing the benefits of price competition.

Recommendations, Management Comments, Audit Response,
  and Required Actions
    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology and Logistics:

           a. Instruct program and contracting office personnel to discontinue
    the practice of designating preferred sources in funding and/or selection
    documents and allow each contractor to be considered fairly based on the
    merits of their proposal.

            b. Change the Defense Federal Acquisition Regulation to direct
    contracting officers to allow all contractors to submit proposals on each task
    order unless a valid exception is justified and signed. Instruct contracting
    officers that broad discretion cannot be used to eliminate sources from task
    order selections.

          c. Establish a goal to maintain multiple proposals on at least 75
    percent of task orders not granted an exception from fair opportunity to
    compete. This goal should be established for each contracting organization,
    and milestones should be established for ultimately increasing this goal to 90
    percent in the future.

          d. Develop a system to statistically track progress of each contracting
    organization’s use of competition in awarding task orders. Each multiple
    award contract should be tracked for sole-source awards, competitive one-
    bid awards, and competitive multiple-bid actions.

    2. We recommend that the Assistant Secretary of the Army for Acquisition,
    Logistics, and Technology; Assistant Secretary of the Navy for Research,
    Development, Acquisition; and the Assistant Secretary of the Air Force
    (Acquisition), Director, Defense Finance and Accounting Service, and
    Director, Defense MicroElectronics Activity:



                                        16
       a. Instruct contracting officials that adequate planning requires an
assessment that a multiple award situation is suitable for the work under
consideration. Work that includes proprietary rights or is otherwise so
unique as to likely result in a pattern of unique exceptions or one-bid actions
would not meet this criteria.

Air Force Comments. The Air Force concurred and stated it will publish a
memorandum to the field emphasizing the need for acquisition planning, avoiding
situations giving contractors exclusive access to one area of work and the need to
maintain competition throughout contract performance.

Defense Finance and Accounting Service Comments. The Director for
Acquisition Services concurred with the recommendation, stating that he agrees
with instructing contracting officials that they must do adequate acquisition
planning to assess that a multiple award situation is appropriate for the work
under consideration.

Audit Response. The Director for Acquisition Services comments are not fully
responsive. Although the Director concurred with the recommendation, he did
not propose any action to comply with it. We therefore request that the Director
provide additional comments in response to the final report providing proposed
action for adopting this recommendation.

Defense Microelectronic Activity Comments. The Director nonconcurred,
stating that the DMEA process is in accordance with FAR 16.505(b) that requires
all potential awardees must be given a fair opportunity to be considered unless a
statutory exception applies. The use of a statutory exception does not negate the
validity of using the Advanced Technology Support Program II (ATSP2) contract.
If a requirement is within the scope of the ATSP2 contract and a legitimate
exception applies to fair opportunity, the benefits of using the contract far
outweigh the time and cost associated with placing individual sole-source
procurements, which would have resulted in the same outcome.

Audit Response. The Director, DMEA comments are not fully responsive. An
occasional determination that one of the statutory exceptions to fair opportunity
applies would not necessarily indicate inappropriate use of the ATSP2 contract.
However, a pattern of repeated use of these exceptions to fair opportunity as a
means to sole-source awards to desired contractors is not appropriate use of the
ATSP2 contract. Specifically, for 49 task orders 13 were called competitive with
one bid and 36 were sole-source. We question the use of the ATSP2 multiple
award contract because there was never any competition (2 or more bids on a task
order). Multiple award contracts were designed to ease the acquisition process for
competitors, not as a means to sole-source procurements. Contracting officials
performed streamlined price analysis on orders issued under the ATSP2 contract
and failed to use DCAA audit services. Sole-source awards would have generated
a more comprehensive price analysis and most likely used DCAA audit services,
thereby, better ensuring a fair and reasonable price. We request that Director,
Defense Microelectronics Activity reconsider his comments and provide
additional comments in response to the final report.

       b. Require the senior contracting official or the Ombudsman at each
          contracting organization to sign each justification for an


                                    17
           exception, attesting to the validity of the exception, when the
           contracting organization is below the DoD goal for multiple
           proposal competition on task orders.

Air Force Comments. The Air Force nonconcurred and stated a key element of
acquisition reform is empowering contracting officers to make the right decision.
The recommendation dilutes contracting officer authority and slows the
acquisition process. Education, training and oversight are the keys to effective
implementation of acquisition policy. The Air Force Materiel Command has
training road shows on proper use of multiple awards and made oversight of
multiple awards a special interest item for Inspector General Offices.

Audit Response. We believe that there was sufficient time for training and
oversight since our last audit. For 121 Air Force task orders, 25 were competed
with multiple bids (21 percent). The recommendation is structured so that there is
no need to request approval for a sole-source task order if an activity is already
achieving a goal of 75 percent competition on task orders. We request the Air
Force reconsider its comments and provide additional comments in response to
the final report.

Defense Finance and Accounting Service Comments. The Director
nonconcurred, stating that the process of setting of goals and then review by the
ombudsman if the goals are not being met is counter to simplifying contracting
processes and institutes an arbitrary task order competition goal.

Audit Response. The Director for Acquisition Services comments were not fully
responsive. Our previous audit report revealed that multiple award task orders
were not being adequately competed. For 13 task orders at DFAS, only 3 were
competed with multiple bids. The proper use of the multiple award approach is
still an efficient and effective streamlined instrument and will also likely result in
more cost savings. We request the Director for Acquisition Service reconsider his
comments and provide additional comments in response to the final report.

Defense Microelectronics Activity. The Director nonconcurred, stating that the
current DMEA process already has four levels of review. To add additional
administrative burdens to this process would undermine the intention of a
streamlined acquisition process. Each activity should have the latitude to develop
and implement its own process that meets the requirements set forth in the
regulations.

Audit Response. The Director, DMEA comments were not responsive. We
agree that the purpose of the multiple award mechanism is to streamline the
acquisition process for competitors, however, it is not intended to streamline the
process to the extent that competition is avoided. As mentioned earlier for 49 task
orders, none were competed and received 2 bids. Although the DMEA may have
four levels of review, it would appear from the number of orders issued with an
exception to fair opportunity, these controls are not working. We request that
Director, Defense Microelectronics Activity reconsider his comments and provide
additional comments in response to the final report.

       c. Remind contracting officials FAR 16.505(b)(2)(iii) states that the
          use of logical follow-on only applies within a multiple award


                                     18
               contract and that a logical follow-on exception does not apply to
               prior contracts or subcontracts awarded outside the multiple
               award contract.

    Air Force Comments. The Air Force concurred and stated it will issue an
    information memorandum to clarify the intent and proper use of the guidance.

    Defense Finance and Accounting Service Comments. The Director concurred
    with reminding contracting officials of the correct definition and application of
    the logical follow-on waiver in multiple award situations.

    Audit Response. The DFAS comments were not fully responsive. Although the
    Director concurred with the recommendation, he did not propose any action to
    comply with it. We therefore request that the Director provide additional
    comments in response to the final report providing proposed action for complying
    with this recommendation.

    Defense Microelectronics Activity Comments. The Director concurred with the
    recommendation stating that DMEA management provided in-house training to
    all contracting officers and project engineers that included training on the fair
    opportunity process, exceptions to fair opportunity, and specifically reviewed the
    appropriate use of all the exceptions including logical follow-on.

Management Comments Required.
    Management comments were not received from the Under Secretary of Defense
    for Acquisition, Technology, and Logistics; the Assistant Secretary of the Army
    for Acquisition, Logistics, and Technology; and the Assistant Secretary of the
    Navy for Research, Development, Acquisition. We request that the:

           •   Under Secretary of Defense for Acquisition, Technology and Logistics
               provide comments for Recommendations 1.a., 1.b., 1.c., and 1.d.;

           •   Army provide comments for Recommendations 2.a., 2.b., and 2.c.;

           •   Navy provide comments for Recommendations 2.a.
               and 2.b.; and 2.c;

           •   Air Force provide additional comments for Recommendation 2.b.;

           •   Defense Finance and Accounting Service provide additional comments
               to Recommendations 2.a., 2.b., and 2.c.; and

           •   Defense Microelectronics Activity provide additional comments to
               Recommendations 2.a. and 2.b.




                                        19
Appendix A. Audit Process

Scope and Methodology
    Our review focused on the procurement actions of multiple award contracts issued
    by 15 DoD contracting organizations for services. The procurement actions
    reviewed covered FY2000 through FY2001. We examined the statements of
    work, negotiation memorandums, source selection decisions, and miscellaneous
    correspondence. Our review covered 423 task orders, valued at $451.4 million,
    awarded under 84 multiple award contracts with total ceiling amount of $9.8
    billion. We judgmentally selected 13 contracting organizations that submitted
    information to OSD. We also selected two Defense activities and reviewed
    multiple award actions during the same time frame as the OSD data.

    Limitations to Scope. The management control program was not reviewed
    because it was covered in IG, DoD, Audit Report No. 99-116, “DoD Use of
    Multiple Award Task Order Contracts.” The prior audit determined that DoD
    contracting activity management controls were not adequate to prevent program
    officials from directing sources of procurements, and to ensure full competition
    among contract awardees.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Contract Management high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from December 2000 through July 2001 in accordance with generally
    accepted Government auditing standards except that we were unable to obtain an
    opinion on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo a new review.

     Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Prior Coverage
    During the past 5 years, the General Accounting Office and the Inspector General,
    DoD, issued three reports that discussed multiple award contracts.


    General Accounting Office
    GAO Report Number NSIAD 98-215 (GAO Code 707272), “Acquisition Reform:
    Multiple-Award Contracting at Six Federal Organizations,” September 30, 1998.



                                        20
Inspector General, DoD
Inspector General, DoD, Report No. 99-116, “DoD Use of Multiple Award Task
Order Contracts,” April 2, 1999.

Inspector General, DoD, Report No. 99-002, “Contracting for Defense Finance
and Accounting Service Support,” October 5, 1998.




                                  21
Appendix B. Summary of Task Order Actions
                                                 Improperly Directed Actions
                                                                         Fair    Fair
                                              Logical    Minimum Opportunity  Opportunity
Locations                      Urgent Unique Follow-On Guaranteed Documented Undocumented
ARMY
CECOM 1                          0        0      0         0          0            0
DSSW 2                           0        0      0         0          0           50
FORSCOM 3                        3       11      0        12         10            0
TACOM 4                          1        2      0         0          0            0
 Army Subtotal                   4       13      0        12         10           50

NAVY
NAVFAC 5                         0         0     0         0          0           0
NAVSUP 6                         1         7    18         0          0           0
MSC 7                            2        11     0         4          0           0
SPAWAR8                          0         0    17         6          49          0
 Navy Subtotal                   3        18    35        10          4           0

AIR FORCE
Brooks AFB                       0        0      0         3         42            1
Eglin AFB                        0        0      1         0          0            0
SMC 10                           0        0      0         0         18            0
Tinker AFB                       0        1      0         1          0           14
Warner Robins AFB                0        0      7         0          2            0
 Air Force Subtotal              0        1      8         4         62           15

DEFENSE ACTIVITIES
DFAS 11                          0        0      2         0          0           7
DMEA12                           0        0      0         6          0           0
 Defense Activities Subtotal     0        0      2         6          0           7

   TOTAL:                        7        32    45        32         76           72



____________________
Note: See footnotes at the end of appendix.




                                               22
                                            Properly Supported Actions                      Total Actions
                                                     Competitive
                                   Competitive       Multiple Bid                                   Sole-Source
Locations                           One Bid       Other        Low    Exceptions        Reviewed     Directed13
ARMY
CECOM 1                                5            4         12            1               22               1
DSSW 2                                 0            0          0            0               50              50
FORSCOM 3                              0            3          1            2               42              38
TACOM 4                                2            6          9            2               22               5
 Army Subtotal                         7           13         22            5              136              94
NAVY
NAVFAC 5                                0           0          4            0                4              0
NAVSUP 6                                8           6          7            4              51               30
MSC 7                                   0           0          0            0               17              17
SPAWAR 8                                2           0          2            1               32              28
 Navy Subtotal                         10           6         13            5              104              75
AIR FORCE
Brooks AFB                             0            0          1            0              47               46
Eglin AFB                              5           11          4            0              2114             1
SMC 10                                 0            2          3            0              23 15            18
Tinker AFB                             1            1          1            0              19               16
Warner Robins AFB                      0            0          2            0              11               9
 Air Force Subtotal                    6           14         11            0              121              90
DEFENSE ACTIVITIES
DFAS 11                                 1           0          3            0              13               9
DMEA12                                 13           0          0           30              49               36
     Defense Activities Subtotal       14           0          3           30              62               45
      TOTAL:                           37          33         49           40              423          304
_________________________________________
1.
    U.S. Army Communications and Electronics Command
2.
    Defense Supply Services Washington
3.
    U.S. Army Forces Command
4.
    U.S. Army Tank Automotive and Armaments Command
5.
    Naval Facilities Engineering Command
6.
    Naval Supply Systems Command
7.
    Military Sealift Command
8.
   Space and Naval Warfare Systems Command
9.
    Competitive one-bids but there was no true expectation of receiving more than one-bid.
10.
    Space and Missile Systems Center
11.
    Defense Finance and Accounting Service
12.
    Defense MicroElectronics Activity
13.
    This column includes invalid awards and valid exceptions. These actions were directed or sole source.
14.
    Data was collected on 71 orders with a full review done on 21 orders and a limited review done on 50
    orders. For this reason, only the 21 orders were included in the 423.
15.
    Data was collected on 64 orders with a full review done on 23 orders and a limited review done on 41
    orders. For this reason, only the 23 orders were included in the 423.




                                                        23
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Defense MicroElectronics Activity




                                          24
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          25
_______________________________________________________________________


DEPARTMENT OF THE AIR FORCE




                                     27
______________________________________________________________________




                            28
_______________________________________________________________________


DEFENSE FINANCE AND ACCOUNTING
SERVICE COMMENTS




                                   29
______________________________________________________________________


DEFENSE MICROELECTRONICS
ACTIVITY COMMENTS




                            30
_______________________________________________________________________




                                      31
______________________________________________________________________




                              32
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.


Garold E. Stephenson
Terry L. McKinney
Bruce A. Burton
Steven I. Case
Billy J. McCain
Robert E. Bender
LaNita C. Matthews
Shelly M. Newton
David P. Goodykoontz
Chrispian M. Brake
Elizabeth M. Baarlaer
